                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: AI0060046                                                                      Page I of I



                 Complainant 1 alleges intellectual property theft based on perceived similarities between
         a figure in an earlier proposa12 and a figure in a proposae he was asked to review. Similarities in
         the figures derive from the fact that both depict a proposed
                                                                                   The elements of the
         figure are similar to those in research papers on this topic. No overlapping text in the proposals
         was apparent. There is no substance to the allegation of intellectual property theft.

                    Accordingly, this case is closed.




         1 Redacted.
         2   Redacted.
         3   Redacted.




NSF OIG Form 2 (11102)
